RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-177
United States Agency for International Development, et al.,
Petitioners,
v.
Alliance for Open Society International, Inc., et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Brief of Amici Curiae Current and Former Members of Congress Supporting
Respondents in the foregoing case contains 4,133 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

